<html>
<title> - QUALIFICATIONS AND CREDENTIALING OF MARINERS: A CONTINUING EXAMINATION</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
                           QUALIFICATIONS AND
                       CREDENTIALING OF MARINERS:
                        A CONTINUING EXAMINATION
=======================================================================

                                (111-68)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                COAST GUARD AND MARITIME TRANSPORTATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION
                               __________

                            October 7, 2009
                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure




                        U.S. GOVERNMENT PRINTING OFFICE
52-748 PDF                    WASHINGTON: 2009

_________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; 
(202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, Washington, DC 
20402-0001







             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             VERNON J. EHLERS, Michigan
JERROLD NADLER, New York             FRANK A. LoBIONDO, New Jersey
CORRINE BROWN, Florida               JERRY MORAN, Kansas
BOB FILNER, California               GARY G. MILLER, California
EDDIE BERNICE JOHNSON, Texas         HENRY E. BROWN, Jr., South 
GENE TAYLOR, Mississippi             Carolina
ELIJAH E. CUMMINGS, Maryland         TIMOTHY V. JOHNSON, Illinois
LEONARD L. BOSWELL, Iowa             TODD RUSSELL PLATTS, Pennsylvania
TIM HOLDEN, Pennsylvania             SAM GRAVES, Missouri
BRIAN BAIRD, Washington              BILL SHUSTER, Pennsylvania
RICK LARSEN, Washington              JOHN BOOZMAN, Arkansas
MICHAEL E. CAPUANO, Massachusetts    SHELLEY MOORE CAPITO, West 
TIMOTHY H. BISHOP, New York          Virginia
MICHAEL H. MICHAUD, Maine            JIM GERLACH, Pennsylvania
RUSS CARNAHAN, Missouri              MARIO DIAZ-BALART, Florida
GRACE F. NAPOLITANO, California      CHARLES W. DENT, Pennsylvania
DANIEL LIPINSKI, Illinois            CONNIE MACK, Florida
MAZIE K. HIRONO, Hawaii              LYNN A WESTMORELAND, Georgia
JASON ALTMIRE, Pennsylvania          JEAN SCHMIDT, Ohio
TIMOTHY J. WALZ, Minnesota           CANDICE S. MILLER, Michigan
HEATH SHULER, North Carolina         MARY FALLIN, Oklahoma
MICHAEL A. ARCURI, New York          VERN BUCHANAN, Florida
HARRY E. MITCHELL, Arizona           ROBERT E. LATTA, Ohio
CHRISTOPHER P. CARNEY, Pennsylvania  BRETT GUTHRIE, Kentucky
JOHN J. HALL, New York               ANH ``JOSEPH'' CAO, Louisiana
STEVE KAGEN, Wisconsin               AARON SCHOCK, Illinois
STEVE COHEN, Tennessee               PETE OLSON, Texas
LAURA A. RICHARDSON, California
ALBIO SIRES, New Jersey
DONNA F. EDWARDS, Maryland
SOLOMON P. ORTIZ, Texas
PHIL HARE, Illinois
JOHN A. BOCCIERI, Ohio
MARK H. SCHAUER, Michigan
BETSY MARKEY, Colorado
PARKER GRIFFITH, Alabama
MICHAEL E. McMAHON, New York
THOMAS S. P. PERRIELLO, Virginia
DINA TITUS, Nevada
HARRY TEAGUE, New Mexico
VACANCY

                                  (ii)




        SUBCOMMITTEE ON COAST GUARD AND MARITIME TRANSPORTATION

                 ELIJAH E. CUMMINGS, Maryland, Chairman

CORRINE BROWN, Florida               FRANK A. LoBIONDO, New Jersey
RICK LARSEN, Washington              DON YOUNG, Alaska
GENE TAYLOR, Mississippi             HOWARD COBLE, North Carolina
BRIAN BAIRD, Washington              VERNON J. EHLERS, Michigan
TIMOTHY H. BISHOP, New York          TODD RUSSELL PLATTS, Pennsylvania
STEVE KAGEN, Wisconsin               PETE OLSON, Texas
MICHAEL E. McMAHON, New York
LAURA A. RICHARDSON, California
JAMES L. OBERSTAR, Minnesota
  (Ex Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Cook, Rear Admiral Kevin, Director, Prevention Policy, United 
  States Coast Guard.............................................     3
Stalfort, Captain David C., Commanding Officer, United States 
  Coast Guard, National Maritime Center..........................     3

           PREPARED STATEMENT SUBMITTED BY MEMBER OF CONGRESS

Richardson, Hon. Laura, of California............................    14

                PREPARED STATEMENT SUBMITTED BY WITNESS

Cook, Rear Admiral Kevin.........................................    17

                       SUBMISSIONS FOR THE RECORD

Cook, Rear Admiral Kevin, Director, Prevention Policy, United 
  States Coast Guard:............................................
      Response to question from Rep. Richardson, a Representative 
        in Congress from the State of California.................    12
      Fact sheet.................................................    22

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]




 HEARING ON QUALIFICATIONS AND CREDENTIALING OF MARINERS: A CONTINUING 
                              EXAMINATION

                              ----------                              


                       Wednesday, October 7, 2009

                   House of Representatives
          Subcommittee on Coast Guard and Maritime 
                                    Transportation,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 2:10 a.m., in 
Room 2167, Rayburn House Office Building, the Honorable Elijah 
E. Cummings [Chairman of the Subcommittee] presiding.
    Mr. Cummings. The Committee will come to order.
    The Subcommittee convenes today to follow up on a hearing 
we convened on July 9th of this year to examine the provisions 
that had recently been made in the processes of the Coast Guard 
and its uses to issue merchant mariner credentials.
    At the time of the hearing, the consolidation of all 
credentialing services at the new National Maritime Center and 
the rollout of that new merchant mariner credential and related 
technical and procedural issues that created a backlog of 6,800 
applications sitting in boxes at the NMC waiting for review and 
approval. The backlog represented 6,800 mariners waiting to 
receive their credentials.
    At the time of that earlier hearing, the Coast Guard 
indicated that the average processing time for a credential 
application from the beginning of 2009 through June 23rd had 
been 80 days. I note that gross processing time includes all of 
the time the Coast Guard requires to move a credential through 
its internal review processes, as well as the time the service 
spends waiting for an applicant to submit additional required 
information.
    At the time of the July hearing, the average net processing 
time, meaning just the time the Coast Guard requires to move an 
application through the process it controls, was 48 days, and 
only 35 percent of credential applications were being 
completely processed in 30 or fewer days. A mariner's 
credential is that individual's ticket to work; without it, a 
mariner cannot earn a living in the maritime industry. 
Particularly in this economic climate, bureaucratic delays that 
may threaten a mariner's ability to work are completely 
unacceptable.
    Because of the urgent need to ensure that the Coast Guard 
can issue a credential within a reasonable amount of time, 
assuming an applicant submits all required information, I asked 
Admiral Cook and Captain Stalfort, during our July hearing, 
when they thought they could correct the problem plaguing the 
credentialing process and eliminate the backlog. They indicated 
that they could resolve the problem by September, and I 
promised that the Subcommittee would reconvene in October to 
receive an update.
    As I repeatedly said, I believe it is critical to 
Congress's oversight function that whenever a commitment is 
made by an agency to address an outstanding problem, the 
Congress ensures that commitment is kept. I also believe that 
the best way we can do this is to convene a follow-up hearing, 
and it is for that reason that we are convening today. I am 
very pleased to see that the Coast Guard appears to have met 
its goal. I will let Admiral Cook and Captain Stalfort discuss 
in more detail the numbers they have to report today.
    That said, reports published by the NMC on the Center's Web 
site indicate that the backlog has been eliminated and that the 
time it takes the Coast Guard to process a credential 
application has dropped significantly. This is precisely the 
news we hoped to hear and we expected to hear, and precisely 
the news mariners deserve, and I commend the Coast Guard for 
meeting this objective.
    The credentialing process is among the most basic 
regulatory functions in the Coast Guard. It isn't necessarily 
the service's most glamorous mission, but it is critical to 
maritime safety and to the lives and careers of individual 
mariners, and it is therefore absolutely essential that the 
credentialing process be managed effectively and efficiently.
    During today's hearing we hope to take a closer look at 
issues related to the medical examinations required for 
mariners, including the seemingly troubled rollout of a new 
merchant mariner medical form, as well as the implications both 
on the merchant marine and on the NMC's functions and processes 
of new international medical standards. Now that the NMC 
appears to be able to manage its current workload, we must 
ensure that any future process changes do not again create 
backlogs and delays.
    Mr. Cummings. With that, I yield to the distinguished 
Ranking Member, Mr. LoBiondo.
    Mr. LoBiondo. Thank you, Mr. Chairman.
    The Subcommittee is continuing its review of the Coast 
Guard's efforts to address personnel and resource shortages 
which created unacceptable delays in the service's licensing 
and credentialing of U.S. merchant mariners. During the 
Subcommittee's hearing on this subject in July, the Coast Guard 
testified it was surging resources to this mission arena, and I 
understand this stopgap strategy was successful in completely 
eliminating the backlog.
    While this is certainly good news to any mariner applying 
for a credential, the Coast Guard must do a better job to plan 
for resources and personnel necessary to maintain performance 
requirements for all of its missions. American merchant 
mariners are required by U.S. law to carry a valid credential 
issued by the Coast Guard. These mariners depend on the service 
for a quick, thorough, and fair review of their qualifications 
and fitness to serve in shipboard positions.
    With the state of the economy today and the significant 
impacts the recession is having on the maritime sector, we 
cannot allow government mismanagement to delay something as 
vital as the credentialing process. I am encouraged by the 
progress that the Coast Guard has made in this area. I commend 
their ongoing efforts to address these issues in the 
credentialing process and I look forward to hearing the 
witnesses' plans to prevent shortfalls in this and other 
missions in the future.
    Thank you.
    Mr. Cummings. Do you have a statement, Mr. Taylor?
    Mr. Taylor. No, sir.
    Mr. Cummings. All right.
    With that, Rear Admiral Kevin Cook is the Director of 
Prevention Policy with the United States Coast Guard and 
Captain David C. Stalfort is the Commanding Officer of the 
Coast Guard's National Maritime Center. Welcome, gentlemen.

  TESTIMONY OF REAR ADMIRAL KEVIN COOK, DIRECTOR, PREVENTION 
    POLICY, UNITED STATES COAST GUARD; AND CAPTAIN DAVID C. 
   STALFORT, COMMANDING OFFICER, UNITED STATES COAST GUARD, 
                    NATIONAL MARITIME CENTER

    Admiral Cook. Good afternoon, Mr. Chairman, Mr. LoBiondo, 
Mr. Taylor.
    Mr. Chairman, I would request to have my written statement 
entered into the record.
    Mr. Cummings. Without objection, so ordered.
    Admiral Cook. Thank you.
    As you mentioned, I am Rear Admiral Kevin Cook, Director of 
Prevention Policy for Marine Safety, Security, and Stewardship 
for the United States Coast Guard.
    Mr. Chairman, I want to thank you for your continued 
interest in the maritime credentialing program. I am pleased to 
have this opportunity to appear before you today to update you 
and the Subcommittee on the status of our operations at the 
National Maritime Center and the Coast Guard's plans for the 
mariner credentialing program.
    I have with me Captain David Stalfort, the Commanding 
Officer of the National Maritime Center, or NMC, as we call it.
    As I mentioned in my previous testimony, the Coast Guard is 
committed to ensuring that the mariner credentialing program is 
capable of issuing credentials to over 216,000 qualified 
mariners, to meet their needs in the shortest possible time, 
and to ensure a safe and secure maritime transportation system 
for the American public. Since my testimony in July 2009, the 
Coast Guard has made significant improvements in the 
credentialing program. In my testimony today, I will review the 
actions we have taken, summarize the results, and present you 
with a course of action for the future.
    In July I presented to the Subcommittee an aggressive plan 
aimed at reducing the credentialing processing time and 
clearing the backlog of applications. Specifically, the plan 
included surging resources to assist in conducting evaluations, 
reaching out to mariners with applications which were stalled 
due to additional information needs, expediting applications 
for mariners at risk of having their current credential expire, 
instituting immediate software changes to resolve technical 
problems with the database used to process the applications and 
aggressively communicating our actions to the industry leaders, 
marine employers, individual mariners, and the public.
    During my July testimony, I reported that our backlog was 
over 6,800 credentials, net processing time 55 days, net 
overall processing had reached 80 days, and I also reported 
that our goal was to get that under 30 days.
    On July 6th, a group of 15 fully qualified and experienced 
evaluators from regional exam centers around the Country formed 
a TIGER team which helped increase the daily productivity of 
credentials from 300 per day to 500 per day. Recognizing that 
many mariners were at risk of having their credentials expire, 
the NMC began expediting at-risk applications. This actually 
enabled us to better prioritize daily work and helped reduce 
the risk of mariners losing their job due to an expired 
credential.
    By August, computer experts at the Coast Guard's Operations 
System Center had resolved all technical problems with the 
software which had been hampering productivity. We also 
developed a monthly report of performance of the mariner 
credentialing program as a means to reach out to mariners and 
show our performance. The report tracks our backlog, 
throughput, and net processing time, with net processing time 
being the driver. We shared this monthly report with your staff 
and with mariners, trade associations, unions, and companies 
through publication on the NMC Web site.
    This is a copy of the measures. I think it is significant 
that, as you look at the top measure, you see the red disappear 
from the bars there. That represented our backlog. So for the 
last three months we have been going without a backlog.
    Then we see, shifting down, the bottom graph is where we 
really want to grab people's attention. The red line on the 
bottom, that is our net processing time, which has been driving 
down towards 30 days and in September got below that mark.
    More importantly, since July, over 19,000 mariners have 
received their credentials. Of these, 13,000, or approximately 
60 percent, received their credentials within 27 days; and in 
the month of September alone 3400 mariners received their 
credentials within 18 days.
    Additionally, by eliminating the backlog and driving down 
the processing time, we were able to better direct resources to 
other improvements. In August we established a more robust 
Customer Service Center, enhancing the capabilities of the 
NMC's Call Center with technical experts to assist mariners 
through the application process and to resolve problems that 
they had been having with their application. We also began 
calling mariners each day to let them know that their 
credential had been printed and mailed to them, and seek their 
feedback on ways to improve our service.
    Last month we met with members of the Merchant Marine 
Personnel Advisory Committee, MERPAC, and the Towing Safety 
Advisory Committee, TSAC, during their fall meetings. We 
intentionally hosted these meetings at the National Maritime 
Center so Committee Members could see firsthand, by touring the 
facility and interacting with employees and being introduced to 
those changes on scene, some of the changes that were really 
happening at the NMC. We listened to their comments and 
recommendations on specific areas of improvement and we 
continue to embed them in our credentialing program.
    The improvements made over the past few months by no means 
indicate that we have completed all the necessary changes. We 
continue to listen and we want to continue to improve.
    I would now like to ask Captain Stalfort to outline some of 
our future plans for improvement.
    Captain Stalfort. Thank you
    Admiral. Good afternoon, Mr. Chairman and Members of the 
Subcommittee. As introduced, I am Captain Dave Stalfort, the 
Commanding Officer of the National Maritime Center.
    The Coast Guard recognizes that additional changes to the 
mariner credentialing program are necessary to further reduce 
processing time and improve service to mariners. Ultimately, 
successful execution of this program requires a modern and 
efficient credential process, clear and simple regulations and 
policy.
    Because of the complexity of the regulatory requirements, 
associated policies, and the application process, many 
applications arrive with missing information, causing 
unnecessary processing delays. To address this issue and to 
improve the overall program, we are completing an assessment of 
all NMC operations by third-party experts to identify ways to 
streamline the current paper-based system, while looking at 
future development of an electronic processing system. This 
assessment began last week.
    We will begin beta testing in mariner credential trusted 
agent program to allow organizations such as mariner employers, 
training institutions, and unions to submit credential 
application packages directly to the National Maritime Center. 
This program, which makes better use of the existing private 
sector marine industry resources, will reduce the instances of 
missing information from the application packages. We will 
begin testing this program by the end of the year.
    We also know we need to do a better job of explaining the 
medical evaluation process. Next month we will be releasing a 
new medical evaluation report form for mariners and their 
physicians, which is designed to work in conjunction with the 
information contained in the medical and physical evaluation 
guidelines for merchant mariner credentials, the NVIC 04-08. We 
also need to address mariners' fears that the medical 
evaluation process will cause mariners to be put out of work. 
In fact, the system has proven to be fair and so far, in 2009, 
only 174 mariners have been denied a credential due to medical 
reasons, and this is less than three-tens of one percent of the 
58,000 mariners who submitted applications in 2009.
    We are also seeking ways to attract and retain the best 
physicians to work at the NMC in the medical branch. We plan to 
use the physician comparability allowance to help alleviate 
recruitment and retention problems that result from pay 
disparities with the medical staff with the private sector. We 
are also expediting work on revising and simplifying the 
regulations and policies to make the program more efficient and 
effective.
    The completion of these technology, regulatory, and policy 
changes will further help decrease processing time and improve 
service to the mariners.
    Mr. Chairman, we will conclude our remarks by reiterating 
the Coast Guard's commitment to improving the mariner 
credentialing program. We continue to work diligently to 
resolve the immediate challenges impacting the mariner 
credentialing program, as well as plan for future operations 
through continued process improvements, technical advances, 
training, and adjustments to staffing.
    Thank you for the opportunity to appear today to update you 
on the improvements we are making to the program, and we will 
be pleased to answer any questions you may have.
    Mr. Cummings. Thank you very much.
    Because I may have to leave this hearing a little bit later 
to do another hearing, I want to, first of all, thank you for 
what you have been able to accomplish in a few months. It is 
indeed extraordinary. And I hope that you will share with the 
men and women of the Coast Guard how much we in the Congress 
appreciate what they have done and how much we realize--not 
only do we thank them on our behalf, but we thank them on 
behalf of mariners, who are simply trying to do their jobs and 
do them right. So we really thank you for that.
    I think that what this has shown--and I am going to have 
just a few questions--is that we can take the resources that we 
have and, with proper planning, use them more effectively and 
efficiently. Is that a fair statement, gentlemen?
    Admiral Cook. It is, Mr. Chairman. We are now set up so 
that without that ponderous backlog pressing on us, we are able 
to look ahead and forecast with our own internal workforce, as 
well as, if we ever need to, draw on the same experts that we 
brought in as part of the TIGER team.
    And just so you know, that is in fact our plan, that we 
don't have to just assemble all 15 at once. Those people now 
know that if we run into a situation where a backlog is 
starting, we can bring in a handful, they can help beat that 
down before it becomes a backlog which affects our overall 
processing time.
    Mr. Cummings. That is very significant because basically 
what you are saying is in those urgent situations, first of 
all, you try to prevent them; then, if you have to deal with 
them, you have a group of--and these are my words--superstars 
that come together like a SWAT team, almost, and deal with it 
so that you can move forward.
    Perhaps this will be an example for other things that we 
can, like you said, not only in this area, but other areas with 
regard to the Coast Guard. Mr. LoBiondo and I often talk about 
how we have this thin blue line, and we realize that your 
duties have been increased substantially, particularly since 9/
11. So I guess by having that kind of team effort and trying to 
get to these matters before they get out of hand, that lends 
itself--I guess that is a good step in the right direction of 
that effectiveness and efficiency that I talked about just a 
moment ago, and it seems like, because of our shortage of 
personnel,--which, by the way, we are trying to get you some 
more--it becomes even more important.
    So I don't want this moment to go by without acknowledging 
what you all have accomplished. It has been just short of 
extraordinary. And I hope that you will pass that on to the 
folks that you work with everyday.
    Admiral Cook. Thank you, Mr. Chairman, for recognizing 
that. We have mentioned a couple times that we are not done 
yet.
    Mr. Cummings. Oh, I know you are not. I know you are not. I 
am trying to pump you up so the next time you will come back 
with even more.
    Let me just ask you two or three questions, then I will 
yield to Mr. LoBiondo.
    The Coast Guard's most recent monthly report states that 
the National Maritime Center's goal is to have fewer than 9,000 
applications in the system at any time. The report also states 
that as long as there are fewer than 9,000 applications, there 
is no backlog. How did you arrive at the goal of having 9,000 
or fewer applications in the system and how do you justify this 
as the benchmark for the existence of a backlog?
    Admiral Cook. Well, Mr. Chairman, we look across the entire 
process from the time that the mariner first submits it to an 
REC to the time he takes to mail it in, the time it then takes 
to go through and do an evaluation based on security, sea time 
evaluations, those kinds of things.
    So we look at each of them in a stovepipe, and we know 
about how long it takes to do that activity and we know how 
many people are assigned in that area, so, as you add it up, we 
figure out how many days it needs to spend in each of those 
locations such that the grand total is less than 30 days; and 
based on the number of files that can be handled by the number 
of people in each of those areas, it also comes out to 9,000 
total files can be in the system and be processed over a period 
of 30 days.
    Mr. Cummings. Okay, according to the data provided to the 
Subcommittee from the beginning of 2009 through September 8, 
2009, 56,437 credentials have been issued. Only 158 mariners 
have been denied a credential because they were deemed 
medically unfit for duty. How many of these individuals have 
appealed their denials and how many of the appeals have been 
granted? And how does this rate of denials, based on medical 
unfitness compare with the denial rate before the Navigation 
and Vessel Inspection Circular 04-08 went into effect and 
before the medical review process was centralized at the 
National Maritime Center?
    Captain Stalfort. Mr. Chairman, of the mariners that have 
been denied a credential, they are all offered an appeal 
process to provide additional information, and of those we have 
processed six appeals so far in 2009 from those medical folks. 
The current denial rate for merchant mariners for medical is 
roughly two-tenths of one percent of all applications coming 
in.
    So of the 156,000 applications, 150, 170 have been denied 
since we started the review under the guidelines. Prior to 
those guidelines, not all the applications were processed at 
the NMC; some of them were still being processed at the 
Regional Exam Center. But prior to the release of the 
guidelines, the denial rate was about one-tenth of one percent. 
So now that we are under the full workload, the current rate is 
about two-tenths of one percent.
    Mr. Cummings. And how many waivers have been granted to 
mariners who have medical conditions and how does the current 
waiver rate compare to the rate before issuance of the NVIC and 
consolidation of the credentialing at the NMC?
    Captain Stalfort. So far, in 2009, we have processed 
waivers for 7,000 mariners out of the 56,000, so that is about 
12 percent. And when we do a waiver, when our medical 
physicians look at the mariner's evaluation, they have to look 
out for five years, because that is the current duration of a 
credential. So we evaluate a mariner's condition, and if the 
condition could deteriorate to such that they would bring a 
risk to marine safety, we issue them a waiver which asks them 
to provide us a change in the medical condition so that we can 
evaluate the risks. So, so far in 2009, about 7,000 waivers.
    Mr. Cummings. Mr. LoBiondo.
    Mr. LoBiondo. Thank you, Mr. Chairman.
    Gentlemen, thank you for being here. Once again, I echo 
Chairman Cummings' congratulatory comments and thank-yous on 
behalf of so many that you have really taken the issue and run 
with it in a way that most of us didn't think would be possible 
in this short a period of time.
    As we move forward, though, can you tell us if you believe 
that the service has the capability to plan for long-term 
resources needs? And the basis of the question is, as the 
Chairman had asked, obviously, you missed something in the 
planning originally for this, so how do we look to the future 
for other issues?
    Admiral Cook. Mr. LoBiondo, I think part of what we think 
will lead to continued success--we have taken down the graph, 
but the three simple measures that we are focused on.
    If we could put that graph back up.
    When you see the middle graph there, sir?
    Mr. LoBiondo. Yes.
    Admiral Cook. Without any great granularity, just the fact 
the bars kind of go through seasonal ups and downs, so, as you 
can see back towards the left hand side of that, in the spring 
months of 2009 is where we saw a significant surge, and that 
pattern does repeat itself; not as dramatically as it did in 
this year because of some TWIC, transportation worker 
identification card, combinations with the seasonal. So we will 
be able to watch for how we are doing, conduct training with 
our members during the times when we are not under peak demand, 
and then put everyone to full force work as the peak is 
growing. Then we will also, as I said earlier, draw in our 
cadre of experts that we used as a TIGER team.
    So I would say without a very specific plan, our plan is to 
be very closely in tune with the performance metrics which go 
ahead and drive us to understand where we need to surge our 
resources.
    Mr. LoBiondo. Can you tell me if the Coast Guard has 
established a process to approve a trusted agent to streamline 
the method review for the application process?
    Admiral Cook. When I was here in July, I mentioned we would 
have something up and running by the end of the year, so we 
have been working on that, Mr. LoBiondo. We have several groups 
that we have identified for a pilot program, a couple of 
schools that we are familiar with working with that already are 
approved to conduct Coast Guard mariner training courses, one 
of the unions, and also a major towing company that has a wide-
ranging fleet and a number of different types of mariner 
licensing and credentials that they need to continue to pursue; 
and we are going to invite them in and begin to bring them on 
as trusted agents in a pilot program this fall so that, by the 
end of the year, we will have the pilot program up and running.
    Then we can understand what it will mean to open it up 
further to additional companies or additional schools or other 
union activities. But we do see that will be a real benefit to 
us and a real benefit to the mariners because their 
applications will arrive as complete as possible.
    Mr. LoBiondo. Last question, do you need or require 
specific statutory authority to utilize trusted agents to 
assist in the medical review process?
    Admiral Cook. At this point, we don't believe so. The legal 
team is looking at that. If we run into roadblocks or 
impediments in our pilot program, then we may have to come and 
seek some additional authority at that point.
    Mr. LoBiondo. Okay. Thank you.
    Thank you, Mr. Chairman.
    Mr. Cummings. Mr. Taylor. You don't have anything?
    All right, let me go back to just a few more questions.
    The Coast Guard Navigation Inspection Circulars don't have 
the force of law, do they?
    Admiral Cook. They do not, sir.
    Mr. Cummings. However, what is the status within the Coast 
Guard, and particularly among the medical evaluators, of the 
medical Navigation and Vessel Inspection Circular 04-08, is it 
rigidly followed, so that if a mariner with a particular 
medical condition submits all the items specified by the NVIC 
to document a particular condition, such information should be 
adequate to enable the required assessment of the mariner's 
medical condition to be made?
    Admiral Cook. Mr. Chairman, the NVIC is intended to be 
guidance to the mariners and doctors submitting on behalf of 
the mariners, but it is also intended to be guidelines for our 
own folks, too, so we meet on a common ground and lead to clear 
and expedited processing.
    But part of any medical evaluation, especially when it 
includes all the way up through a physician evaluating the 
information, there needs to be some discretion that goes beyond 
the NVIC, where information that is provided through responding 
to what is requested from the NVIC gets evaluated, but if the 
physician feels like he needs to know more information, we 
still feel like that is an important part of making the right 
medical determination. So the effort is to try and use that 
NVIC as guidance both to the mariner and to our internal Coast 
Guard folks reviewing it, but we do see that there are times 
when additional information would be requested.
    Mr. Cummings. Now, the notice indicated that the results of 
a mariner medical examination completed on or after January 
1st, 2010, would have to be recorded on the new form. The forms 
were not issued as planned. When does the Coast Guard 
anticipate releasing the new medical forms? When is the use of 
the new forms to be required for mariners, and why has this 
process been sloppy?
    Admiral Cook. Well, Mr. Chairman, I take full 
responsibility for that because the staff wanted to push the 
new form out in July and I said there were just too may other 
changes that were going on and things we were trying to 
accomplish in terms of the bigger picture at the NMC, that I 
didn't want to introduce a new form that could be perceived by 
mariners as one additional item they needed to comply with that 
they weren't prepared for.
    So we have the form ready to roll out. We will be posting 
it in November and it will be able to be used on a voluntary 
basis so that people can become comfortable with it, and it 
will become mandatory on January 1st. The rest of the month 
here in October we are going to be reaching out to physicians 
which we routinely hear from representing our mariners and 
others to help them become comfortable with the idea of the new 
form.
    I would just comment that the new form has 88 different 
conditions identified there, and we think that this is going to 
be a very clear mapping over of requirements that relate to the 
different mariner conditions that previously were open-ended, 
but will bring better alignment and smoother processing. But 
the form will be available and mandatory January 1st, and it 
will be on our Web site, ready to be used on a voluntary basis 
in November.
    Ms. Richardson. [Presiding] Thank you very much for that 
response.
    Under the International Labor Organization Conventions, 
which the U.S. is a party, mariners are supposed to undergo 
physical examinations every two years, is my understanding. 
Additionally, the Labor Convention also requires a two-year 
medical certificate, which will come into force sometime in 
2011. The Coast Guard has indicated that it is currently 
discussing whether and how and when to begin requiring mariners 
other than pilots to undergo these examinations every two 
years. Do you have a status on that assessment?
    Admiral Cook. It is being considered to bring us in 
alignment with the ILO Convention that you mentioned, and also 
there are some changes that are being talked about with the 
STCW Convention, which will link back to the ILO Convention, 
and we expect those two to marry up and come in force either in 
2012 or 2013; and we intend to follow the lead as the STCW 
incorporates the ILO functions. So that is the time frame that 
we are looking at, 2012 to 2013.
    Ms. Richardson. So what steps are you taking currently to 
begin that process? Or are you, if any?
    Admiral Cook. Well, I would say that the part that we are 
participating in are normal interaction with the STCW 
Subcommittee at IMO, so that we are a part of that negotiation 
and deliberation, which will lead to the modifications to the 
Convention.
    Ms. Richardson. And do you anticipate that those who would 
be required would be all mariners or only those on the 
international?
    Admiral Cook. That has not been completely decided right 
now, but we do----
    Ms. Richardson. What is your opinion? What would be your 
recommendation?
    Admiral Cook. We are looking to bring all mariners under 
the same program. We think that that provides the greatest 
level of safety. But, again, there are some aspects that need 
to continue to be evaluated.
    Ms. Richardson. Such as?
    Admiral Cook. Well, in any type of rulemaking, we always go 
through our public outreach. We have the advantage, also, with 
the Coast Guard, we have the Towing and Safety Advisory 
Committee, TSAC, which would be a group of inland mariners that 
we could relate to; the Merchant Marine Personnel Advisory 
Committee that could give us advice.
    There could be some aspect of the two-year interval which 
the industry itself would not think is a good idea, an aspect 
that maybe, as regulators, we hadn't considered. So I don't 
have a specific thing to mention right now that is under active 
consideration, just that our process would lead us to consider 
a wider field of conditions than just the Coast Guard might 
think is proper.
    Ms. Richardson. And then just my last question, kind of 
leading on the same point. In 2007, the National Highway 
Traffic Safety Administration reported that heart attacks, 
other than physical impairments of the ability to act, were 
critical reasons in 3 percent of all serious truck crashes. 
Does the Coast Guard keep any similar records with respect to 
marine casualties, and would such statistics be useful in 
developing a medical policy?
    Admiral Cook. Ma'am, I am not really prepared to answer 
that question. I have to get back to you on the record, if that 
would be okay.
    Ms. Richardson. Sure. To give you another similar example, 
recently, when we extended the age, for example, with the 
pilots, and then we had had an incredible record run with 
pilots, you know, no problems, and not long thereafter we 
actually had a pilot, for example, who had a heart attack in 
flight. So that is one of the vehicles that can be used to 
consider in light of some of the incidents that are occurring 
to justify in fact fully implementing this program.
    So you will get back to the Committee?
    Admiral Cook. That would be my preference, rather than to 
speculate at this point.
    Ms. Richardson. Okay. Thank you, sir.
    [Information follows:]
    [GRAPHIC] [TIFF OMITTED] T2748.016
    
    Next, I would like to turn to our Ranking Member. Did you 
have any other questions?
    Mr. LoBiondo. No.
    Ms. Richardson. Mr. Taylor? No?
    Seeing no other questions, we will adjourn at this time.
    We look forward to you coming back and following up with 
any other information that was asked today. Thank you very 
much.
    Meeting adjourned.
    [Whereupon, at 2:45 p.m., the Subcommittee was adjourned.]
    [GRAPHIC] [TIFF OMITTED] T2748.017
    
    [GRAPHIC] [TIFF OMITTED] T2748.018
    
    [GRAPHIC] [TIFF OMITTED] T2748.019
    
    [GRAPHIC] [TIFF OMITTED] T2748.020
    
    [GRAPHIC] [TIFF OMITTED] T2748.021
    
    [GRAPHIC] [TIFF OMITTED] T2748.022
    
    [GRAPHIC] [TIFF OMITTED] T2748.023
    
    [GRAPHIC] [TIFF OMITTED] T2748.024
    
    [GRAPHIC] [TIFF OMITTED] T2748.025
    
                                    

</pre></body></html>
